          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of the Administration of Regional
           Local Telecommunications Services Contracts,
           Northeast and Caribbean Region
           Report Number A130010/Q/2/P14003
           August 11, 2014




A130010/Q/2/P14003
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                     REPORT ABSTRACT
OBJECTIVES                    Audit of the Administration of Regional Local Telecommunications
 The objectives of our        Services Contracts, Northeast and Caribbean Region
 audit were to determine      Report Number A130010/Q/2/P14003
 whether:                     August 11, 2014
 • Network Services           WHAT WE FOUND
   Division (Network          We identified the following during our audit:
   Services) is effectively
   managing its workload      Finding 1 – The absence of a team lead for Network Services IT
   to ensure that             Managers results in inefficient administration of RLTCs.
   Regional Local             Finding 2 – Inadequate training requirements for IT Managers result in
   Telephony Contracts        inefficient administration of RLTCs.
   (RLTCs) in the
   Northeast and              Finding 3 – Customers are billed an undisclosed markup due to a lack
   Caribbean Region are       of transparency in the billing process.
   administered efficiently   WHAT WE RECOMMEND
   and timely. If they are    Based on our audit findings we recommend that the Regional
   not, determine the         Commissioner, Northeast and Caribbean Region:
   impact and
   recommend corrective         1. Establish a permanent team lead position within Network
   action; and                     Services.
 • Customers are billed at      2. Implement a policy that requires Network Services Information
   agreed-upon RLTC                Technology Managers (IT Managers) to complete specialized
   rates.                          training to ensure that they have the necessary skills to efficiently
                                   administer RLTCs.
                                3. Develop and implement an on-the-job training plan to assist less
                                   experienced IT Managers in acquiring the skills necessary to
                                   administer contracts, regardless of complexity.
                                4. Require Network Services to establish formal agreements with
                                   customer agencies that set terms and conditions, and outline all
                                   pricing components including the RLTC rates that GSA pays to
                                   vendors.
Northeast and                   5. Implement a policy that requires full disclosure of all
Caribbean Region                   administrative surcharges by clearly itemizing customer invoices.
Audit Office (JA-2)
26 Federal Plaza              MANAGEMENT COMMENTS
Room 1751                     Management agreed with our findings and recommendations, and has
New York, NY 10278            already begun taking steps to correct specific issues. Management
(212) 264-8620                comments are included in Appendix B.


     A130010/Q/2/P14003                        i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            August 11, 2014
 TO:              Jeffrey Lau
                  Acting Regional Commissioner, FAS, Northeast and Caribbean
                  Region (2Q)

 FROM:            Mark Rothschild
                  Audit Manager
                  Northeast and Caribbean Region Audit Office (JA-2)
 SUBJECT:         Audit of the Administration of Regional Local Telecommunications
                  Services Contracts, Northeast and Caribbean Region
                  Report Number A130010/Q/2/P14003

This report presents the results of our audit of the administration of Regional Local
Telecommunications Services Contracts in the Northeast and Caribbean Region. Our
findings and recommendations are summarized in the Report Abstract. Instructions
regarding the audit resolution process can be found in the email that transmitted this
report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Mark Rothschild Audit Manager          mark.rothschild@gsaig.gov (202) 273-7363
 Gregory Ventola Auditor-In-Charge      gregory.ventola@gsaig.gov (212) 266-3361

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A130010/Q/2/P14003                      ii
Table of Contents

Introduction .............................................................................................................. 1


Results
Finding 1 – The absence of a team lead for Network Services IT Managers results
            in inefficient administration of RLTCs. ..................................................... 2
                 Recommendation 1 ................................................................................. 3
                 Management Comments ......................................................................... 3
Finding 2 – Inadequate training requirements for IT Managers result in inefficient
            administration of RLTCs. ......................................................................... 3
                 Recommendations 2 and 3...................................................................... 4
                 Management Comments ......................................................................... 5
Finding 3 – Customers are billed an undisclosed markup due to a lack of
            transparency in the billing process. ......................................................... 5
                 Recommendations 4 and 5...................................................................... 6
                 Management Comments ......................................................................... 7


Conclusion................................................................................................................ 8


Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




A130010/Q/2/P14003                                        iii
Introduction
The Northeast and Caribbean Region’s (Region 2) Federal Acquisition Service (FAS)
provides telecommunications services contracts for federal agencies in New York, New
Jersey, Puerto Rico, and the U.S. Virgin Islands. These contracts provide federal
government users continuity of services and a measure of price stability for local
telecommunications services. The Network Services Division (Network Services)
assists customer agencies in obtaining comprehensive telecommunications services at
the lowest aggregate prices. Network Services consists of a Director, six contracting
staff team members, and seven Information Technology Managers (IT Managers)
responsible for assisting customer agencies in defining requirements, identifying
solutions, ordering services, and managing telecommunications services, including
billing operations. 1

IT Managers also record and complete sales transactions using FAS’s
Telecommunications Ordering and Pricing System for billing. 2 In the monthly billing
process, telecommunication vendors bill the General Services Administration (GSA)
through the Financial Service Center. GSA pays the vendors and then seeks
reimbursement from Network Services customers. Network Services sales are primarily
from monthly telecommunication services (also known as recurring services),
designated B1, and expanded services (also known as non-recurring services),
designated B3. 3

Network Services is currently in the process of transitioning customers from Local
Service Contracts to Regional Local Telephony Contracts (RLTCs). 4 This process
includes moving services for the majority of customers from incumbent vendors under
the Local Service Contracts (Verizon and AT&T) to the awarded vendor under RLTCs,
Windstream Communications.

The objectives of our audit were to determine whether: (1) Network Services is
effectively managing its workload to ensure that RLTCs in the Northeast and Caribbean
Region are administered efficiently and timely. If they are not, determine the impact and
recommend corrective action; and (2) customers are billed at agreed-upon RLTC rates.

See Appendix A – Purpose, Scope, and Methodology for additional details.



1
  A contracting officer from Assisted Acquisition Services was temporarily assigned to the position of
Acting Deputy Director to assist in the transition to RLTCs. This assignment ended on August 30, 2013.
2
  This system is managed by FAS’s Financial Service Center in Atlanta, Georgia.
3
  In fiscal year 2013, revenue generated from B1 services represented $13.1 million or 66.3 percent of
total sales. Revenue generated from B3 services represented $6.5 million or 32.7 percent of total sales.
In addition, the region generates a small amount of sales from toll call charges, designated B4.
4
  Similar to the expiring Local Service Contracts, RLTCs have a 5-year term that consists of an initial 2-
year period of performance followed by three 1-year option periods. This gives Network Services an
opportunity to evaluate price reasonableness during years 3 through 5 and renegotiate, if necessary.


A130010/Q/2/P14003                              1
Results
Finding 1 – The absence of a team lead for Network Services IT Managers results
in inefficient administration of RLTCs.

The current organizational structure of Network Services in Region 2 does not promote
efficient administration of RLTCs. Specifically, the absence of a team lead causes an
imbalanced workload and fewer opportunities for skill development of IT Managers. 5

The structure of Network Services’ Telecommunications Operations Branch consists of
a Division Director and seven IT Managers. 6 As a result of this setup, the Division
Director serves as the direct supervisor to all Network Services employees. Previously,
Network Services had two team leads; however, these positions were eliminated in
2012. According to Network Services’ Division Director, a team lead position was not
reestablished because a qualified candidate could not be found to fill the position.
Additionally, hiring limitations were imposed on Network Services during GSA’s Top-to-
Bottom review. 7

Network Services personnel indicated greater efficiency during the period when team
leads were in place. In addition, several other regional Network Services offices have
one or more team leads providing a level of supervision between the Division Director
and IT Managers. An appropriate level of supervision is an important aspect of an
organization’s control environment. The Financial Audit Manual, jointly issued by the
U.S. Government Accountability Office and the President’s Council on Integrity and
Efficiency, cites the following as conditions that may indicate internal control
weaknesses: 8

    •   Supervision of employees does not compensate for lack of knowledge and skills
        in their specific jobs.
    •   The number of supervisors is inadequate or supervisors are inaccessible.

Based on our discussions with Network Services personnel, the following are several
adverse effects resulting from the absence of a team lead:

    •   Minor issues that should be resolved by the staff, such as customer complaints
        and billing disputes, are being escalated to the Division Director.
    •   The Division Director becomes responsible for distributing the overall workload
        without detailed knowledge of IT Managers’ day-to-day assignments. As a result,
        complex customers and orders are often reassigned to more experienced IT
        Managers, regardless of their current assignments. This causes an imbalanced

5
  For purposes of this report, the description of a team lead includes official supervisory authority.
6
  Currently, Network Services is rotating Region 2 IT Managers into a temporary supervisory position.
7
  GSA’s Top-to-Bottom review was an agency initiative that examined how GSA could best fulfill its
mission to deliver the greatest possible value to the American people and its federal partners.
8
  GAO/PCIE FAM 295 B.03


A130010/Q/2/P14003                            2
        workload because the more experienced IT Managers must handle additional
        customers that should have been assigned to other IT Managers.
    •   IT Managers must resolve issues on their own, rather than sharing resources and
        knowledge through collaboration with a supervisor.
    •   IT Managers have limited opportunity to gain supervisory skills due to a lack of
        promotion potential within Network Services. This leads to a negative effect on
        employee morale.
    •   Limited opportunity for less experienced IT Managers to receive on-the-job
        training, resulting in a lack of skill development.

The establishment of a permanent team lead position within Network Services should
improve the efficiency of RLTC administration, reduce the skill gap amongst IT
Managers, and balance the overall workload.

Recommendation 1

We recommend that the Acting Regional Commissioner, Northeast and Caribbean
Region:

1. Establish a permanent team lead position within Network Services.

Management Comments

In its comments, management agreed with our finding and has already begun taking
steps to address our recommendation (see Appendix B).

Finding 2 – Inadequate training requirements for IT Managers result in inefficient
administration of RLTCs.

Network Services management does not require or encourage IT Managers to take
specialized training related to the administration of RLTCs. As a result, some IT
Managers lack the skills necessary to perform certain job functions effectively, creating
a skill gap between experienced and less experienced IT Managers. This skill gap
leads to an imbalanced overall workload because complex orders are often only
assigned to the experienced IT Managers.

The Federal Acquisition Certification-Contracting Officer Representative (FAC-COR)
Program requirements are governed by the September 6, 2011 OMB Revisions to the
FAC-COR. To maintain Level II or Level III FAC-COR certification, IT Managers are
required to earn 40 hours of Continuous Learning Points every 2 years. 9

As Contracting Officer Representatives, all IT Managers are responsible for duties
related to contract planning, formation, and management; topics typically covered by

9
  All Network Services IT Managers in Region 2 have previously met the requirements to obtain Level II or
Level III FAC-COR certification. All IT Managers met the Continuous Learning Points requirements for
the most recently completed 2-year training period.


A130010/Q/2/P14003                             3
current training standards. However, Network Services IT Managers are required to
perform several job functions unique to the telecommunications industry, such as:

     •   Conduct comprehensive analysis and in-depth studies on a broad range of
         information technology issues impacting both current and evolving technology.
     •   Establish and maintain liaisons with all levels of users of network services
         (including telecommunications) to determine information technology needs
         including current and anticipated voice, record, and data requirements for
         complex projects.
     •   Provide user training to customers on information technology equipment.
     •   Receive, research, and resolve the full range of customer complaints that arise
         with respect to GSA provided equipment or services.

IT Managers need to incorporate specialized training into their bi-annual training
requirement to ensure that they have the necessary skills to efficiently administer
RLTCs. The insufficient skill sets of some IT Managers result in Network Services
management assigning complex orders to more experienced IT Managers, regardless
of workload distribution. In turn, less experienced IT Managers are limited in their
opportunity to develop the necessary skills to effectively perform their jobs.

Network Services management should assess the skill sets of each IT Manager and
utilize the FAS Integrated Technology Services (ITS) University Training Plans to
create customized, individual training and development plans that aim to improve IT
Managers’ proficiency in all ITS core competencies. 10 The implementation of this
policy, along with the development of an on-the-job training plan, would reduce the skill
gap amongst IT Managers and, ultimately, balance the workload within Network
Services.

Recommendations 2 and 3

We recommend that the Acting Regional Commissioner, Northeast and Caribbean
Region:

2. Implement a policy that requires Network Services IT Managers to complete
specialized training to ensure that they have the necessary skills to efficiently administer
RLTCs.

3. Develop and implement an on-the-job training plan to assist less experienced IT
Managers in acquiring the skills necessary to administer contracts, regardless of
complexity.




10
  The FAS ITS University Training Plans for Workforce Development list the eight core competencies as:
Acquisition, Communication, Customer Service, Leadership, Management and Supervision, Program
Management, Project Management, and Technology.


A130010/Q/2/P14003                            4
Management Comments

In its comments, management agreed with our finding and has already begun taking
steps to address our recommendations (see Appendix B).

Finding 3 – Customers are billed an undisclosed markup due to a lack of
transparency in the billing process.

Network Services does not have written agreements with its customers and does not
provide them with itemized invoices that show billing details. This allows Network
Services to charge an additional undisclosed markup and not pass cost savings along
to its customers.

Under RLTCs, Network Services and a selected vendor have an agreement which
outlines telecommunications services and associated rates that can be offered to
customer agencies. However, there is no formal agreement between Network Services
and customer agencies. Rather, there is an informal agreement via email outlining the
services to be provided and respective pricing. Without formal agreements that outline
rates and set binding prices, Network Services has the ability to mark up RLTC rates to
improve its financial performance.

We analyzed a judgmental sample of customer billings and were unable to reconcile
invoiced amounts for several Contract Line Item Numbers (line items) to agreed-upon
RLTC rates. A representative of the Financial Service Center explained that, in some
instances, a variance exists between the RLTC rate and the base rate actually charged
to the customer. Network Services further clarified that, as part of the transition from
Local Service Contracts to RLTCs, a new vendor with lower rates was chosen to
provide telecommunications services in Region 2. 11 Regional management concluded
that the resulting billing rates would be too low for Network Services to be profitable
because the surcharge amount collected would decrease once applied to the lower
base rates. 12 Therefore, instead of passing the lower base rates on to customer
agencies, the RLTC rates for certain line items were marked up. Figure 1 shows an
example of this markup.




11
  i.e., Windstream Communications
12
   The surcharge is a fixed percentage applied to the base rate of all line items, which reimburses
Network Services and Central Office administrative costs.


A130010/Q/2/P14003                          5
                     Figure 1 – Example of Pricing for Line Item 001I-SDP2
                       Base            13                     Surcharge      Surcharge
                                 SRC           Subtotal              14                      Bill Rate
                       Rate                                     Rate          Amount
                        a          B            c=a+b              d           e=c*d          f=c+e
                15
Before Markup          $395      $6.25         $401.25          25.1%          $100.71       $501.96
 After Markup          $410      $6.25         $416.25          25.1%          $104.48       $520.73

As shown in this example, because the surcharge is percentage based, the base rate
markup also results in an increase in the surcharge amount that the customer is
charged. Testimonial evidence indicates that the line items management selected to
mark up generate the majority of Network Services’ Region 2 revenue.

Several of Network Services’ current business practices are inconsistent with GSA’s
commitment to improving transparency, including:

     •   Network Services does not have formal agreements with customer agencies
         which would set terms and conditions and outline elements of pricing.
     •   RLTC rates that Network Services pays to vendors are not disclosed to
         customers.
     •   Network Services does not provide its customers with itemized invoices that
         show the surcharge and service-related charge (if applicable).

This lack of transparency allows GSA to bill its customers an additional undisclosed
markup and not pass cost savings along to its customers. Network Services should
establish formal agreements with customers that outline all pricing components and fully
disclose all administrative surcharges by clearly itemizing customer invoices. This
would improve the division’s transparency and allow customers to realize potential cost
savings.

Recommendations 4 and 5

We recommend that the Acting Regional Commissioner, Northeast and Caribbean
Region:

4. Require Network Services to establish formal agreements with customer agencies
that set terms and conditions, and outline all pricing components including the RLTC
rates that GSA pays to vendors.

5. Implement a policy that requires full disclosure of all administrative surcharges by
clearly itemizing customer invoices.

13
   A service-related charge (SRC) is added to the base rate for certain line items. The amount varies by
geographic region and is established in the Region 2 Annual Rate Plan.
14
   In fiscal year 2013, all Region 2 customers were charged a surcharge rate of 25.1 percent for each
provided service.
15
   This represents the agreed-upon RLTC rate. Agency customers were not billed at this rate; the markup
was applied prior to any billings under the new vendor.


A130010/Q/2/P14003                             6
Management Comments

In its comments, management agreed with our finding and has already begun taking
steps to address our recommendations (see Appendix B).




A130010/Q/2/P14003                  7
Conclusion
The current organizational structure of Network Services in Region 2 does not promote
efficient administration of RLTCs. Specifically, the absence of a team lead causes an
imbalanced workload and fewer opportunities for skill development of IT Managers.

Network Services management does not require or encourage IT Managers to take
specialized training related to the administration of RLTCs. As a result, some IT
Managers lack the skills necessary to perform certain job functions effectively.

Network Services does not have written agreements with its customers and does not
provide them with itemized invoices that show billing details. This lack of transparency
allows GSA to bill its customers an additional undisclosed markup and not pass cost
savings along to its customers.

In order to address these deficiencies, the Acting Regional Commissioner, Northeast
and Caribbean Region, should: (1) establish a permanent team lead position within
Network Services; (2) Implement a policy that requires Network Services IT Managers
to complete specialized training to ensure that they have the necessary skills to
efficiently administer RLTCs; (3) develop and implement an on-the-job training plan to
assist less experienced IT Managers in acquiring the skills necessary to administer
contracts, regardless of complexity; (4) require Network Services to establish formal
agreements with customer agencies that set terms and conditions, and outline all
pricing components including the RLTC rates that GSA pays to vendors; and (5)
implement a policy that requires full disclosure of all administrative surcharges by
clearly itemizing customer invoices.




A130010/Q/2/P14003                     8
Appendix A – Purpose, Scope, and Methodology
Purpose

Our audit of the administration of Regional Local Telecommunications Services
Contracts in the Northeast and Caribbean Region was included in the Office of
Inspector General fiscal year 2013 audit plan.

Scope

Our audit focused on the skill sets and workload of IT Managers, telecommunications
transactions, and the organizational structure of Network Services in Region 2. The
customer sample for our analysis of transactions was selected using inventory amounts
billed during the 1-year period ended May 31, 2013. 16

Methodology

To accomplish our objectives, we:

     •   Interviewed Network Services personnel including the Director, Acting Deputy
         Director, and several IT Managers;
     •   Interviewed Financial Service Center personnel involved in Network Services
         financial operations including the Director, a Lead Analyst, and a Financial
         Analyst;
     •   Interviewed the Customer Accounts and Research Representative assigned to
         Network Services;
     •   Reviewed Network Services financial information for fiscal year 2013;
     •   Compared the current organizational structure of Network Services in Region 2
         to its historical structure, as well as the structure of Network Services in several
         other regions;
     •   Evaluated position descriptions for the IT Manager labor category;
     •   Reviewed the requirements IT Managers must fulfill to obtain and maintain
         Contracting Officer Representative certification, and determined whether they are
         sufficient for IT Managers to efficiently administer Regional Local Telephony
         Contracts;
     •   Assessed the qualifications of IT Managers by reviewing training records for the
         current and previous Continuous Learning Points period to determine if
         certification requirements were being met;
     •   Researched available training opportunities that Network Services can use to
         create individual training and development plans for IT Managers;




16
   Inventory billed amounts represent the monthly recurring charges for a customer’s inventory, less any
billing reconciliation adjustments.


A130010/Q/2/P14003                           A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
   •   Analyzed a threshold report from the Telecom Invoice Management system that
       detailed inventory variances between Telecommunications Ordering and Pricing
       System and vendor bills for the 10-month period ended July 31, 2013;
   •   Attempted to reconcile customer bills to Network Services’ pricing records (i.e.,
       vendor rates, rate tables, rate plan, surcharge, and service-related charge); and
   •   Reviewed a rate variance report provided by the Financial Service Center to
       identify those customers and line items for which markups were not disclosed.

We conducted the audit between February 2013 and January 2014, in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The examination of internal controls was limited to those necessary to address the
specific objectives and scope of the audit. Our results are identified in the body of this
report.




A130010/Q/2/P14003                     A-2
Appendix B – Management Comments




A130010/Q/2/P14003    B-1
Appendix B – Management Comments (cont.)




A130010/Q/2/P14003     B-2
Appendix B – Management Comments (cont.)




A130010/Q/2/P14003     B-3
Appendix B – Management Comments (cont.)




A130010/Q/2/P14003     B-4
Appendix C – Report Distribution
Acting Regional Commissioner, FAS, Northeast and Caribbean Region (2Q)

Regional Administrator, Northeast and Caribbean Region (2A)

Commissioner, FAS (Q)

Deputy Commissioner, FAS (Q1)

Chief of Staff, FAS (Q0A)

Regional Counsel, Northeast and Caribbean Region (LD2)

Director, Network Services Division, Northeast and Caribbean Region (2QTC)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Audit Liaison, FAS, Northeast and Caribbean Region (2Q1)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130010/Q/2/P14003                     C-1
